<html>
<title> - A REVIEW OF NASA'S PLANS FOR THE INTERNATIONAL SPACE STATION AND FUTURE ACTIVITIES IN LOW EARTH ORBIT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      A REVIEW OF NASA'S PLANS FOR
                    THE INTERNATIONAL SPACE STATION
                AND FUTURE ACTIVITIES IN LOW EARTH ORBIT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2019

                               __________

                           Serial No. 116-34

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-914PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, 
CHARLIE CRIST, Florida                   Puerto Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
KATIE HILL, California
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                             July 10, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

                               Witnesses:

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    17
    Written Statement............................................    19

The Honorable Paul Martin, Inspector General, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. Eric Stallmer, President, Commercial Spaceflight Federation
    Oral Statement...............................................    40
    Written Statement............................................    42

Dr. Joanne Irene Gabrynowicz, Emerita, University of Mississippi, 

  Editor-in-Chief, Emerita, Journal of Space Law
    Oral Statement...............................................    50
    Written Statement............................................    52

Discussion.......................................................    59

              Appendix: Answers to Post-Hearing Questions

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration...........................    84

The Honorable Paul Martin, Inspector General, National 
  Aeronautics and Space Administration...........................    91

Dr. Joanne Irene Gabrynowicz, Emerita, University of Mississippi, 

  Editor-in-Chief, Emerita, Journal of Space Law.................    93

 
                    A REVIEW OF NASA'S PLANS FOR THE
                    INTERNATIONAL SPACE STATION AND
                  FUTURE ACTIVITIES IN LOW EARTH ORBIT

                              ----------                              


                        WEDNESDAY, JULY 10, 2019

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Horn. This hearing will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time.
    Good morning, everyone, and welcome to our panel of 
distinguished witnesses. I appreciate you being here, and I 
look forward to our discussion today.
    And before I begin with my opening statement, I do want to 
acknowledge the panel and say thank you for your testimony, but 
to express, just to be clear, that we didn't receive the 
testimony from NASA (National Aeronautics and Space 
Administration) and from Mr. Stallmer until late yesterday 
evening, which, in the future--I understand we all have a lot 
going on, but it really makes it easier for us to--or helpful 
for us to prepare for this if we're able to review the 
testimony further in advance. So I'll just make a request to 
all of you that hopefully we can expedite that more in the 
future so we're not cramming the night before. And as a 
lifelong procrastinator, I understand, but if you all could 
help us out with that, it would be very, very much appreciated 
because we've got some very important issues to tackle here 
today.
    So to begin, beginning our hearing on ``A Review of NASA's 
Plans for the International Space Station and the Future of 
Activities in Low Earth Orbit.''
    For nearly 20 years, the International Space Station (ISS) 
has expanded our understanding of what it means to live and 
work in space. Our investment in the ISS has enabled scientific 
research, development, and technology demonstrations from DNA 
sequencing to advanced technology for water purification 
worldwide, and much more. More importantly, we haven't done 
this alone. The ISS is a shining example of international 
cooperation, as well as innovative relationships for 
transportation services and expanded partner use of the ISS 
National Laboratory.
    I want to acknowledge the NASA, international, and 
commercial partners who continue to ensure the safe and 
productive operation of the ISS. As the Aerospace Safety 
Advisory Panel noted, the ISS program deals with ``the 
challenges of operating in the space environment in such a way 
to make it seem normal business.'' That's quite an 
accomplishment. However, there is nothing normal about 
operating in human spaceflight. I know you all are aware of 
that. And aging spacesuits and delays in the availability of 
U.S. commercial crew transportation services are just a few of 
the risks that need to be addressed looking forward at ISS.
    In addition to dealing with these and other near-term 
challenges involved in sustaining the ISS, we also need to look 
at what lies ahead. While NASA has affirmed the integrity of 
the ISS structure through at least 2028, the lifetime of the 
laboratory is finite. What will come next? How will NASA and 
the Nation ensure that the objectives for ISS are sustained 
following the end of ISS operations, whenever that occurs? And 
what are the steps that are needed to occur such that we can 
have confidence in avoiding the gap between the ISS and a 
future low-Earth orbit (LEO) facility?
    NASA's International Space Station Transition Report 
identifies options, including ``transitioning the ISS platform 
to private industry, augmenting it with privately developed 
modules, combining portions of the ISS with a new private 
platform, or deploying a new free-flying platform and 
deorbiting the ISS.'' I'm looking forward to learning more 
about these and other approaches because when and how we 
transition NASA's activities in low-Earth orbit from the ISS to 
an alternative platform or operating module is critical.
    NASA has made clear its plans to transition from a 
government-owned and operated ISS ``to a regime where NASA is 
one of many customers purchasing services from a LEO 
nongovernmental human space flight enterprise.'' This leaves a 
number of important and urgent questions that must be 
addressed: Who are those other customers? What does NASA's 
vision mean? In terms of NASA's commercial LEO development 
plan, what is the value proposition for the U.S. taxpayer? What 
level of investment is the private sector willing to make? Are 
NASA's planned investments in stimulating a commercial market 
demand and supply in LEO going to ensure a smooth transition 
and prevent a gap in NASA's ISS and low-Earth orbit activities?
    The challenge here is in the balance of risk and reward. 
Under this plan, the commercial entities aren't the ones 
assuming the bulk of the risk; that falls to NASA. And yet the 
potential benefits to the government and taxpayer are uncertain 
at best.
    The question then is what the U.S. taxpayer will be on the 
hook to fund. With no near-term market other than NASA, there 
is a real question about the cost to the taxpayer. NASA 
currently pays more than $3 billion a year to operate the 
International Space Station, a worthwhile investment. But on 
top of that, NASA's plans to fund the development of one or 
more commercial space stations, subsidize commercial activity 
on the ISS, and purchase services from future commercial space 
stations call into question whether this plan will save NASA 
money that it can apply to the moon program or if it will end 
up costing us more, not less, over the next decade. I look 
forward to getting more into the details.
    NASA's plan may result in impacts to ISS research and 
technology development that is needed to enable human 
exploration of the moon, Mars, and more, which is why these 
issues are so critical. We also need to understand the 
potential implications of the plan for ISS and international 
partnership on which NASA intends to build its future human 
space exploration.
    In closing, the low-Earth orbit and microgravity 
environment may in time support a commercially viable market. 
NASA has already taken initiatives to support commercial space 
through its development of commercial cargo services, 
commercial crew capabilities, and enabling research and 
development in low-Earth orbit. While NASA's interest in 
finding innovative approaches and stimulating a commercial 
market in low-Earth orbit are well-intended, we need to be 
responsible with the taxpayers' investment in the ISS as a 
national and international asset, and we need to carefully 
consider how we ensure a successful transition of our ISS 
activities going forward.
    [The prepared statement of Chairwoman Horn follows:]

    Good morning, and welcome to our distinguished panel of 
witnesses. I appreciate your being here, and I look forward to 
our discussion.
    For nearly twenty years, the International Space Station 
has expanded our understanding of what it means to live and 
work in space. Our investments in the ISS have enabled 
scientific research, development, and technology demonstrations 
from DNA sequencing to advanced technology for water 
purification, now used worldwide.
    More importantly, we haven't done it alone. The ISS is a 
shining example of international cooperation as well as 
innovative relationships for transportation services and 
expanded partner users of the ISS National laboratory.
    I want to acknowledge the NASA, international, and 
commercial partners who continue to ensure the safe and 
productive operation of the ISS. As the Aerospace Safety 
Advisory Panel noted, the ISS Program deals with ``the 
challenges of operating in the space environment in such a way 
as to make it seem `normal' business.''
    However, there is nothing normal about human spaceflight. 
Aging spacesuits and delays in the availability of U.S. 
commercial crew transportation services are just a few of the 
risks that need to be addressed.
    In addition to dealing with these and other near term 
challenges involved in sustaining the ISS, we must also look to 
what lies ahead.
    While NASA has affirmed the integrity of the ISS structure 
through at least 2028, the lifetime of the laboratory is 
finite. What will come next? How will NASA and the nation 
ensure that the objectives for the ISS are sustained following 
the end of ISS operations, whenever that occurs? What are the 
steps that need to occur such that we can have confidence in 
avoiding a gap between the ISS and a future low Earth orbit 
facility?
    NASA's International Space Station Transition Report 
identifies options, including ``transitioning the ISS platform 
to private industry, augmenting it with privately developed 
modules, combining portions of the ISS with a new private 
platform, or deploying a new free-flying platform and de-
orbiting the ISS.''
    I'm looking forward to learning more about these, and any 
other approaches, because when and how we transition NASA's 
activities in low Earth orbit from the ISS to an alternative 
platform or operating model is critical.
    NASA has made clear its plans to transition from a 
government-owned and operated ISS ``to a regime where NASA is 
one of many customers purchasing services from a LEO non-
governmental human space flight enterprise.''
    This leaves a number of important and urgent questions that 
must be addressed.
    <bullet> LWho are those other customers? What does NASA's 
vision mean?
    <bullet> LIn terms of NASA's commercial LEO development 
plan, what is the value proposition for the U.S. taxpayer?
    <bullet> LWhat level of investment is the private sector 
willing to make?
    <bullet> LAre NASA's planned investments in stimulating 
commercial market demand and supply in LEO going to ensure a 
smooth transition and prevent a gap in NASA's ISS and low Earth 
orbit activities?
    The challenge here is the balance of risk and reward. Under 
this plan the commercial entities aren't the ones assuming the 
bulk of the risk, that falls to NASA yet the potential benefits 
to the Government and taxpayer are uncertain at best. The 
question is what the U.S. taxpayer will be on the hook to fund. 
With no near-term market other than NASA, there is a real 
question about the cost to the U.S. taxpayer.
    NASA currently pays more than $3 billion a year to operate 
the ISS. On top of that, NASA plans to fund the development of 
one or more commercial space stations, subsidize commercial 
activity on the ISS, and purchase services from future 
commercial space stations.
    Will this plan save NASA money that it can apply to its 
Moon program, or will it end up costing NASA more, not less, 
over the next decade? I look forward to getting the details.
    NASA's plan, may result in impacts on the ISS research and 
technology development that is needed to enable human 
exploration of the Moon and Mars and more.
    We also need to understand the potential implications of 
the plan for the ISS international partnership on which NASA 
intends to build its future human exploration plans?
    In closing, the low-Earth orbit and microgravity 
environment may in time support a viable commercial market. 
NASA has already taken initiatives to support commercial space 
through its development of commercial cargo services, 
commercial crew capabilities, and enabling research and 
development in low Earth orbit. While NASA's interest in 
finding innovative approaches to stimulating a commercial 
market in low Earth orbit are well intended, we need to be 
responsible with the taxpayers' investment in the ISS as a 
national and international asset, and we need to carefully 
consider how we ensure a successful transition of our ISS 
activities going forward.

    Chairwoman Horn. And now I will turn to Ranking Member Mr. 
Babin for your opening statement.
    Mr. Babin. Thank you, Madam Chair. I appreciate it. I want 
to say thank you to our distinguished witnesses here today. And 
also, I'd like to extend a welcome to several folks that are up 
here from my district from Johnson Space Center (JSC). If you 
would stand if you're out there from Johnson Space Center. Oh, 
man, we've got half the room. OK. I knew there were some 
familiar faces out there, but I wanted to say welcome. I hope 
you're learning a lot up here about legislation and some of the 
activities that we're going to talk about today are right in 
their bailiwick is some of their responsibilities, so thank you 
for being up here.
    But anyway, thank you, Chairwoman Horn, for holding this 
hearing. The International Space Station is one of humanity's 
highest technological achievements. As an internationally built 
and operated orbiting laboratory, the ISS conducts critical 
research that helps us both on Earth and in space. As a 
multinational project, this engineering marvel illustrates the 
power of U.S. leadership on the frontiers of this exploration.
    NASA has worked very hard to conquer the challenges of low-
Earth orbit. We have learned how the human body reacts to the 
microgravity environment, and we're still learning, I might 
say. And we have grown food, crystalized proteins, we've 
launched satellites, we've conducted scientific observations of 
the Earth and the stars above.
    During the 115th Congress, I introduced the Leading Human 
Spaceflight Act, which, among other provisions, would extend 
the authorization of the ISS from 2024 to 2030. And I would 
note that this extension would not simply swap out dates. 
Rather, my bill would also call for an earlier termination of 
Federal support for the ISS if a commercial alternative is in 
place prior to 2030. It is vital to not only our leadership in 
space but also our national security that America maintain a 
continual, uninterrupted human presence in low-Earth orbit.
    I look forward to working with my colleagues on both sides 
of the aisle to ensure that we prevent another damaging 
capability gap like the one we experienced at the conclusion of 
our Space Shuttle program.
    All of that being said, it is very important to note that 
our financial resources for space activities are limited, and 
any decision on ISS extension will result in some tradeoffs. 
NASA has previously estimated that the ISS will cost taxpayers 
between $3 and $4 billion annually through 2024, roughly half 
of NASA's total human spaceflight budget. Each dollar spent on 
transportation to, and maintenance of, the ISS is a dollar that 
is not being spent on exploration beyond low-Earth orbit, 
whether it is to the moon, to Mars, or other destinations. 
Numerous reports from the National Academies and the NASA 
Inspector General have concluded that an extension of the ISS 
could result in a multiyear delay to future deep-space 
missions.
    So I proudly represent the Johnson Space Center, which 
manages both the ISS and the Orion programs, so I am especially 
aware of the trades that we have to make between low-Earth 
orbit and deep space exploration.
    Aside from today's discussion of the ISS, we will also hear 
from our witnesses about ongoing efforts to increase commercial 
activities in low-Earth orbit. NASA has engaged in a lot of 
work over the last 3 years to examine potential markets and the 
capacity for them. They've commissioned think-tank studies, 
sought input from industry, and researched the various 
architectures at length. This work informed their recent 
announcement on ISS commercialization last month. Our witnesses 
today will share their thoughts on how NASA can continue to 
work with industry to find opportunities to develop more 
commercial markets in low-Earth orbit.
    Section 303 of the 2017 NASA Transition Authorization Act 
directed NASA to conduct a transition report for ISS where NASA 
would be ``one of many customers of a low-Earth orbit 
commercial human space flight enterprise.'' A future where NASA 
is able to act as a customer and purchase a variety of services 
will allow the agency to focus on more ambitious deep-space 
missions, and I look very much forward to hearing from our 
witnesses how this Committee can help make this step happen. 
And allowing NASA to serve as a customer rather than a 
developer of basic services is a very fiscally responsible move 
that will benefit the taxpayer and industry alike.
    I want to thank today's witnesses for being with us, and I 
look forward to your discussion. And with that, I yield back, 
Madam Chair.
    [The prepared statement of Mr. Babin follows:]

    Thank you for holding this hearing, Chairwoman Horn.
    The International Space Station is one of humanity's 
highest technological achievements. As an internationally built 
and operated orbiting laboratory, the ISS conducts critical 
research that helps us both on Earth and in space. As a multi-
national project, this engineering marvel illustrates the power 
of U.S. leadership on the frontiers of exploration.
    NASA has worked hard to conquer the challenges of low-Earth 
orbit. We have learned how the human body reacts to the 
microgravity environment. We have grown food, crystalized 
proteins, launched satellites, and conducted scientific 
observations of the Earth and stars above.
    During the 115th Congress, I introduced the Leading Human 
Spaceflight Act which, among other provisions, would extend the 
authorization of ISS from 2024 to 2030. I would note that this 
extension would not simply swap out dates. Rather, my bill 
would also call for an earlier termination of federal support 
for ISS if a commercial alternative is in place prior to 2030. 
It is vital to--not only our leadership in space--but also our 
national security that America maintain a continual, 
uninterrupted human presence in low Earth orbit. I look forward 
to working with my colleagues on both sides of the dais to 
ensure we prevent another damaging capability gap like the one 
we experienced at the conclusion of the Space Shuttle program.
    All of that being said, it is important to note that our 
financial resources for space activities are limited and any 
decision on ISS extension will result in tradeoffs. NASA has 
previously estimated that the ISS will cost taxpayers between 
three and four billion dollars annually through 2024--roughly 
half of NASA's total human spaceflight budget.
    Each dollar spent on transportation to--and maintenance 
of--ISS is a dollar not spent on exploration beyond low earth 
orbit, whether it is to the Moon, Mars, or other destinations. 
Numerous reports from the National Academies and the NASA 
Inspector General have concluded that an extension of the ISS 
could result in a multi-year delay to future deep-space 
missions.
    I proudly represent the Johnson Space Center, which manages 
both the ISS and Orion programs, so I am especially aware of 
the trades we have to make between low Earth orbit and deep 
space exploration.
    Aside from today's discussion of ISS, we will also hear 
from our witnesses about ongoing efforts to increase commercial 
activities in low-Earth orbit. NASA has engaged in a lot of 
work over the last three years to examine potential markets and 
the capacity for. They've commissioned think-tank studies, 
sought input from industry, and researched the various 
architectures at length. This work informed their recent 
announcement on ISS Commercialization last month. Our witnesses 
today will share their thoughts on how NASA can continue to 
work with industry to find opportunities to develop more 
commercial markets in low-Earth orbit.
    Section 303 of the 2017 NASA Transition Authorization Act 
directed NASA to conduct a transition report for ISS where NASA 
would be ``one of many customers of a low-Earth orbit 
commercial human space flight enterprise.'' A future where NASA 
is able to act as a customer and purchase a variety of services 
will allow the agency to focus on more ambitious deep-space 
missions and I look forward to hearing from our witnesses how 
this Committee can help take this step. Allowing NASA to serve 
as a customer rather than a developer of basic services is a 
fiscally responsible move that will benefit the taxpayer and 
industry alike.
    I want to thank today's witnesses for being with us, and I 
look forward to our discussion.
    I yield back.

    Chairwoman Horn. Thank you, Ranking Member.
    And the Chair now recognizes the Chairwoman of the Full 
Committee, Ms. Johnson, for her opening statement.
    Chairwoman Johnson. Thank you very much, Chairwoman Horn 
and Ranking Member Babin, for holding this hearing to consider 
NASA's plans for the International Space Station and future 
activities in low-Earth orbit.
    As I have noted in the past, the International Space 
Station is the largest and most complex science and engineering 
project ever carried out in space. It plays a critical role in 
carrying out human health and technological research that is 
essential if we are to successfully send astronauts to Mars and 
back. The ISS also serves as a laboratory for fundamental and 
applied science, as well as an observation platform for 
astronomical, environmental, and heliophysics research. It has 
been an enduring example of international cooperation in space, 
and it continues to inspire young people to excel and to 
provide opportunities for classrooms across our Nation to 
interact with our astronauts through live communication 
downlinks.
    Yet the ISS is a limited resource with a limited lifetime, 
and we need to make sure that we make the best use of it while 
we have it. And to me, that means making sure that its highest 
priority is carrying out the research and engineering testbed 
activities that can only be done in ISS. That is the lens 
through which I will be looking at NASA's proposals for ISS 
commercial activities.
    I support efforts to create a vibrant commercial space 
economy in low-Earth orbit, but ultimately it is the private 
sector that will determine whether or not that will happen. 
Private investment will be needed, not government subsidies, if 
LEO commercialization is to be sustainable over the long term. 
I believe that the jury is still out as to whether that will 
happen.
    In the meantime, the International Space Station has a 
limited lifetime, limited crew size, and limited research 
capabilities. As I said earlier, we need to ensure that those 
resources are focused on those tasks that can only be done by 
ISS and that are a high priority. As a result, we will be 
taking a close look at NASA's proposed commercialization 
initiative to see whether it meets that standard. At this 
point, I'm not convinced that it does. For example, I'm 
skeptical that sending wealthy space tourists to ISS is the 
best or even a good use of taxpayers-funded facility.
    NASA keeps saying that there are unanswered human health 
research questions that can only be addressed on the ISS; 
questions that need to be answered if we are to reduce the risk 
of sending humans to Mars. If that is the case, our focus 
should be on sending additional crew members or researchers to 
the station, not well-heeled individuals seeking an exotic 
vacation.
    We have much to discuss today, and I look forward to 
hearing from our witnesses. I welcome our witnesses. Thank you, 
and I yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chairwoman Horn, for holding this hearing to 
consider NASA's plans for the International Space Station and 
future activities in low Earth orbit.
    As I have noted in the past, the International Space 
Station is the largest and most complex science and engineering 
project ever carried out in space. It plays a critical role in 
carrying out the human health and technological research that 
is essential if we are to successfully send our astronauts to 
Mars and back. The ISS also serves as a laboratory for 
fundamental and applied science as well as an observation 
platform for astronomical, environmental, and heliophysics 
research. It has been an enduring example of international 
cooperation in space, and it continues to inspire our young 
people to excel and to provide opportunities for classrooms 
across our nation to interact with our astronauts through live 
communication downlinks.
    Yet the ISS is a limited resource with a limited lifetime, 
and we need to make sure that we make the best use of it while 
we have it. And to me, that means making sure that its highest 
priority is carrying out the research and engineering testbed 
activities that can only be done on the ISS. That is the lens 
through which I will be looking at NASA's proposals for ISS 
commercial activities. I support efforts to create a vibrant 
commercial space economy in low Earth orbit, but ultimately it 
is the private sector that will determine whether or not that 
happens. Private investment will be needed, not government 
subsidies, if LEO commercialization is to be sustainable over 
the long term. And I think that the jury is still out as to 
whether that will happen.
    In the meantime, the International Space Station has a 
limited lifetime, limited crew size, and limited research 
capabilities. As I said earlier, we need to ensure that those 
resources are focused on those tasks that can only be done on 
the ISS and that are of highest priority. As a result, I will 
be taking a close look at NASA's proposed commercialization 
initiative to see whether it meets that standard. At this 
point, I am not convinced it does. For example, I am skeptical 
that sending wealthy space tourists to the ISS is the best-or 
even a good-use of that taxpayer-funded facility. NASA keeps 
saying there are unanswered human health research questions 
that can only be addressed on the ISS, questions that need to 
be answered if we are to reduce the risks ofsending humans to 
Mars. If that is the case, our focus should be on sending 
additional crew members or researchers to the Station, not well 
heeled individuals seeking an exotic vacation.
    Well, we have much to discuss today, and I look forward to 
hearing from our witnesses. Thank you, and I yield back.

    Chairwoman Horn. Thank you, Madam Chairwoman.
    And if there are Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    And let me extend my warm welcome as well again to the 
witnesses. We have a distinguished panel today, and clearly we 
have a lot to discuss as we're moving into this next phase to 
address concerns as we move forward to prevent, as my colleague 
said, a capability gap in this important endeavor.
    I'll begin by introducing our witnesses today. Our first 
witness, Mr. William Gerstenmaier, is no stranger to appearing 
before this Committee, and we're glad to have you here today--
Associate Administrator for the Human Exploration and 
Operations Mission Directorate at NASA. Prior to his current 
position, Mr. Gerstenmaier served as the Manager for the 
International Space Station program. He also served as the 
Associate Administrator for the Space Operations Mission 
Directorate during the completion of the space station. Mr. 
Gerstenmaier holds a bachelor of science in aeronautical 
engineering from Purdue University and a master of science 
degree in mechanical engineering from the University of Toledo. 
He is becoming a regular when it comes to testifying before us 
and clearly has expertise related to ISS. And we are glad to 
see you again, and we appreciate you being here as we consider 
these important issues. So welcome, Mr. Gerstenmaier.
    Our next witness, Mr. Paul Martin, Inspector General for 
the National Aeronautics and Space Administration. Mr. Martin 
has been NASA Inspector General since Senate confirmation in 
2009. Prior to his appointment at NASA, he served as the Deputy 
Inspector General in the Department of Justice. He also spent 
13 years at the U.S. Sentencing Commission, including 6 years 
as the Commission's Deputy Staff Director. Mr. Martin received 
a B.A. in journalism from Pennsylvania State University and a 
juris doctorate from Georgetown University Law Center. We look 
forward to your testimony today, Mr. Martin, and we're glad 
that you're here, so welcome.
    Our next witness is Mr. Eric Stallmer. Mr. Stallmer is the 
President of the Commercial Spaceflight Federation, CSF, and 
has much experience in the commercial space sector. CSF is a 
trade organization dedicated to promoting the development of 
commercial spaceflight and was recently appointed to the 
National Space Council User Advisory Group. Before working at 
the Commercial Spaceflight Federation, Mr. Stallmer served as 
the Vice President of Government Relations for Analytical 
Graphics, Incorporated. Mr. Stallmer has a bachelor's degree in 
political science and history from Mount Saint Mary College and 
a master's in Public administration from George Mason 
University.
    Mr. Stallmer also testified yesterday before our colleagues 
in the Senate, and so you've had a long 2 days but we're glad 
you're joining us today and appreciate your willingness to do 
back-to-back hearings in 24 hours, so welcome. Glad to have you 
here.
    And our last witness is Professor Joanne Irene Gabrynowicz. 
Did I get it right? Excellent. I know Gerst. I just want to 
make sure I get it right. So Professor Gabrynowicz is a 
Professor Emerita of Space Law and Director of the National 
Center for Remote Sensing, Air, and Space Law at the University 
of Mississippi Law Center. Professor Gabrynowicz is also the 
Editor-in-Chief Emerita of the Journal of Space Law. In 
addition, she is the Director of the International Institute of 
Space Law (IISL) and is an official observer for the IISL to 
the U.N. Committee on the Peaceful Uses of Outer Space. She 
received her bachelor's from City University of New York and 
earned her juris doctorate from the Cardozo School of Law. 
Welcome, Professor Gabrynowicz.
    As our witnesses, you should all know that each of you will 
have 5 minutes for your spoken testimony, and your written 
testimony will be included in the record for this hearing. When 
you've completed your spoken testimony, we'll begin with 
questions, and each Member will have 5 minutes of questions.
    And since you've been through this drill many times before, 
Mr. Gerstenmaier, we'll start with you.

            TESTIMONY OF MR. WILLIAM H. GERSTENMAIER,

           ASSOCIATE ADMINISTRATOR, HUMAN EXPLORATION

            AND OPERATIONS MISSION DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you very much.
    ISS is the most amazing and productive space research 
facility ever constructed by humankind. ISS is accomplishing 
more than previously envisioned. For example, ISS' role in 
CubeSat, CubeSatellite deployment and development, was 
unanticipated. Who would've thought that ISS and its relatively 
low altitude would be seen as the go-to CubeSat deployment 
platform. The CubeSat lifetime is on the order of months at the 
altitude of the space station. The lifetime constraint would 
seem to reduce CubeSat developers' desire to use the space 
station.
    The cost of access to ISS and the ability of crews to 
interact with the satellites prior to deployment made ISS a 
great research platform for CubeSats. As of today, 250 CubeSats 
have been deployed from the ISS. ISS has played a pivotal role 
in the development of the CubeSat market.
    ISS also played a strong role in lowering launch costs. 
Cargo transportation to allow--to ISS allowed for new 
competition to enter the launch market. ISS cargo with relaxed 
launch reliability requirements allowed new competition in 
launch vehicles and helped bring commercial satellite launch 
back to the U.S. soil. Clearly, this role for ISS was not 
envisioned at the beginning of ISS.
    Last, the ISS international partnership has allowed the ISS 
team to set interoperability standards for the rest of the 
world to follow. The international docking standards allow 
anyone building to the standard to dock with the ISS. The 
standard does not dictate design but allows for docking. There 
are now standards for life support, power, data, and avionics. 
The ISS team is setting standards for the rest of the world to 
follow in human spaceflight. These standards will be used for 
our lunar activity.
    Today's hearing discussing future plans for the ISS is very 
timely. Just as the activities that I mentioned have surprised 
us and the benefits from ISS, I think the upcoming years of ISS 
operations offer the chance to see ISS contribute in ways not 
yet envisioned or imagined.
    The area that I would like to discuss in my opening remarks 
is the ISS activity associated with creating a commercial 
market for low-Earth orbit activities. Several weeks ago, NASA 
announced a plan to utilize ISS to explore market development 
in low-Earth orbit. Previously, NASA asked commercial industry 
for their ideas to commercialize low-Earth orbit, and, based on 
the input from 12 studies and 12 companies, NASA developed a 
plan. That plan comprises five key areas.
    First, to establish ISS commercial use and pricing policy. 
That allows the commercial companies to understand where they 
can use ISS and how much it will cost.
    The second point was to enable private astronaut missions 
to the ISS.
    The third point was to initiate a process of commercial 
development of low-Earth orbit destinations. This means 
allowing the docking port to be used on ISS for commercial 
activities and also investing--investigating new free-flying 
platforms.
    Fourth, we were seeking out and pursuing opportunities to 
stimulate demand.
    And fifth, we've been quantifying NASA's long-term needs 
for activities in low-Earth orbit. With this data, commercial 
companies should be able to build a business plan and determine 
ways to generate revenue from low-Earth orbit.
    NASA can enable U.S. industry to see the benefits and 
opportunities in low-Earth orbit spaceflight. However, the 
results will only come from the private sector investing and 
taking risk. All companies investing in low-Earth orbit will 
not be successful. It is critical that NASA create the right 
environment for these potential low-Earth orbit entrepreneurs. 
The ultimate goal is for NASA to become one of many customers 
for activities in low-Earth orbit. Being one of many customers 
will lower cost for NASA and allow us to more effectively use 
the dollars that we have been provided. I stress that the 
burden of creating this new market will be on the private 
sector and not on NASA.
    Again, thank you for the opportunity to be here today, and 
I look forward to your questions.
    [The prepared statement of Mr. Gerstenmaier follows:]
    [GRAPHIC] [TIFF OMITTED] T6914.008
    
    [GRAPHIC] [TIFF OMITTED] T6914.009
    
    [GRAPHIC] [TIFF OMITTED] T6914.010
    
    [GRAPHIC] [TIFF OMITTED] T6914.011
    
    [GRAPHIC] [TIFF OMITTED] T6914.012
    
    [GRAPHIC] [TIFF OMITTED] T6914.013
    
    [GRAPHIC] [TIFF OMITTED] T6914.014
    
    [GRAPHIC] [TIFF OMITTED] T6914.015
    
    [GRAPHIC] [TIFF OMITTED] T6914.016
    
    [GRAPHIC] [TIFF OMITTED] T6914.017
    
    Chairwoman Horn. Thank you, Mr. Gerstenmaier. Mr. Martin.

              TESTIMONY OF THE HON. PAUL K. MARTIN,

                     INSPECTOR GENERAL, NASA

    Mr. Martin. Chairwoman Horn, Ranking Member Babin, and 
Members of the Subcommittee, over the past 5 years, the Office 
of Inspector General has issued 13 reports related to the 
International Space Station, including reviews of NASA's 
efforts to maximize onboard research, manage the $17 billion in 
contracts with private companies to fly cargo and crew, and 
maintain international partnerships that fund almost one-
quarter of the station's annual expenses. My testimony today is 
informed by these past reviews, in particular, an audit we 
issued last July that assessed NASA's utilization of the ISS.
    For the past 21 years, the ISS has served as a unique 
platform for humans to experience living in space while 
conducting research in a microgravity environment. But while a 
unique platform, it's also an expensive platform that costs 
NASA between $3 to $4 billion annually or about half its human 
space flight budget.
    In my remarks this morning, I offer three observations 
based on our oversight work. Observation one: NASA's current 
plans for a more incremental approach to ISS commercialization 
appear more realistic than its previous approach that set a 
hard deadline of October 2025 to end direct Federal funding for 
the station. That said, we continue to question whether a 
sufficient business case exists under which private companies 
can create a self-sustaining and profit-making business using 
the ISS independent of significant government funding in the 
short or midterm. From our perspective, it is unlikely that a 
private entity would assume the station's operating cost, 
currently $1.2 billion annually, to enable NASA to achieve its 
stated goal of, quote, ``becoming one of many customers of a 
commercial LEO platform.''
    Observation two: Structurally, it appears the service life 
of the ISS could safely be extended to at least 2028 if not 
beyond. However, the larger challenge may be the yearly expense 
of operating the station past 2024, an expense that may impact 
NASA's ability to fund other priorities. Unless the agency 
receives a substantial and sustained appropriations increase, 
it will be hard-pressed to continue supporting ISS operations 
under its current model while also funding initiatives such as 
the Gateway, lunar landers, new spacesuits, and other 
technologies required for a moon landing.
    Observation three: Last month, NASA announced an interim 
directive outlining use of the ISS for commercial and marketing 
activities. To help companies develop business plans, NASA also 
published a pricing policy under which it plans to charge 
private astronauts around $1 million for a month-long stay on 
the ISS or about $35,000 per day. While NASA acknowledges these 
prices are substantially subsidized and represent only a small 
portion of the agency's actual cost, the initiative is one 
approach NASA is undertaking to foster a commercial market in 
low-Earth orbit. The likelihood of success of this effort 
remains unclear for a variety of reasons, not the least of 
which is uncertainty about when routine commercial crew flights 
to the ISS will begin and how much a seat will cost a private 
astronaut.
    In conclusion, one positive benefit of the Administration's 
FY 2019 plan to end direct Federal funding of the ISS after 
2024 was that it helped focus the conversation about the 
station's future. Whether the final decision is extension, 
increased commercialization, retirement, or some combination of 
these options, the sooner the Administration and Congress agree 
on a definitive path forward for the ISS, the better NASA will 
be able to maximize use of the station and make additional 
plans to commercialize low-Earth orbit. Thank you.
    [The prepared statement of Mr. Martin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Mr. Martin. Mr. Stallmer, 
you're recognized for 5 minutes.

               TESTIMONY OF MR. ERIC W. STALLMER,

          PRESIDENT, COMMERCIAL SPACEFLIGHT FEDERATION

    Mr. Stallmer. Thank you so much.
    Chairwoman Horn, Ranking Member Babin, and distinguished 
Members of the Subcommittee, thank you for inviting the 
Commercial Spaceflight Federation to discuss our members' views 
on the state of the U.S. commercial space industry. We also 
appreciate the opportunity to review NASA's plans for the 
International Space Station and examine future activities in 
low-Earth orbit.
    In addition to NASA's utilization of the ISS, the United 
States now has a vibrant, highly capable commercial space 
sector that is beginning to maximize the utility of the ISS and 
is demonstrating a growing LEO economy. As we look to the 
future in which the government is one of many customers, it 
needs to be reduced--it needs to reduce the burdens on the 
system and moves at the speed of business.
    Because of NASA's foresight and cultivation of this 
industry, American companies support space exploration and 
national security needs today in addition to the commercial 
marketplace. Unlike when the first pieces of the ISS were being 
launched into LEO, we now have an exciting and diverse 
commercial marketplace, one which NASA can partner to achieve 
its goals. Twenty years after Americans launched the first 
module of ISS, the current Administration, NASA, and Congress 
have established a national commitment to ensure American 
leadership in low-Earth orbit to establish a permanent human 
presence in low-Earth orbit and enable the development of a 
commercial and industrial ecosystem.
    Long-term, sustainable human presence and commercial 
activity in LEO requires an integrated effort. This includes 
stimulating greater demand for space-based industrial R&D and 
spaceflight products and services to LEO, the development of 
commercial space stations and space habitats, and routine 
transportation of astronauts and cargo to and from LEO. Public-
private partnerships with commercial companies are fundamental 
to developing these capabilities.
    As you look to ensure America's leadership in space, you 
must ensure we--this includes rapid innovation. Last month, 
NASA released guidance for its LEO economy initiative. CSF 
commends Administrator Bridenstine and the entire NASA team for 
recognizing the success of the commercial industry, 
incorporating best practices, and updating objectives to 
accelerate the development of these important capabilities.
    As NASA works to implement this initiative, we recommend 
the following few ideas:
    <bullet> LEncourage NASA to adopt the best elements of its 
successful efforts to commercialize space such as the 
Commercial Orbital Transportation Services, COTS, program and 
the Commercial Crew Program.
    <bullet> LMaintain competition throughout the life of a 
program to encourage innovation and cost reduction. Multiple 
providers offer redundant capabilities in the event of delays 
or challenges.
    <bullet> LSupport of a complete utilization of the ISS 
through at least 2028 in a timely, seamless transition process 
toward commercial space stations to ensure that the U.S. 
maintains a continuous human presence in low-Earth orbit.
    <bullet> LProvide certainty and predictability by 
communicating a clear plan for the transition to commercial 
systems. That means that if NASA is going to charge for ISS-
related services, those prices should change infrequently and 
with substantive advance notice.
    <bullet> LAnd resist the temptation to try to make money 
now at the expense of future LEO market expansion. This would 
be the very definition of killing the goose that lays the 
golden eggs.
    Regularly engage with industry, which NASA does a great job 
with, to understand and incorporate new commercial capabilities 
as they evolve as opposed to requesting the business--
requesting that business fit within NASA's plans.
    Grant users complete control over intellectual property 
developed on ISS and avoid competing with private industry.
    We are ready to take the next step with NASA, and we look 
forward to continuing to work with this Committee to establish 
a permanent human presence in low-Earth orbit and enable the 
development of strong commercial ecosystem.
    Chairwoman Horn, Ranking Member Babin, I really--and 
Members of the Committee, I really appreciate the invitation to 
testify before you today, and I thank you for your attention. I 
look forward to all your questions.
    [The prepared statement of Mr. Stallmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you very much, Mr. Stallmer. 
Professor Gabrynowicz.

           TESTIMONY OF DR. JOANNE IRENE GABRYNOWICZ,

               EMERITA UNIVERSITY OF MISSISSIPPI,

          EDITOR-IN-CHIEF EMERITA, JOURNAL OF SPACE LAW

    Dr. Gabrynowicz. Thank you. Chairwoman Horn, Ranking Member 
Babin, Members of the Subcommittee, thank you for giving me the 
opportunity to address NASA's Plans for the International Space 
Station and Future Activities in low-Earth orbit. I am 
delighted to respond. My full statement has been submitted for 
the record.
    This statement addresses two points of space law that are 
particularly germane to plans to develop low-Earth orbit and 
the station. They speak directly to U.S. national interests, 
and there is a brief conclusion.
    The first point is that the U.S. Government is 
internationally responsible for the activities of its 
nongovernmental space actors in perpetuity. The second point is 
that the legal obligations of the U.S. Government continue in 
force even after the transfer of station elements to 
nongovernmental commercial activities.
    Regarding the first point that the United States has 
international responsibility for its nongovernmental space 
actors, Article 6 of the Outer Space Treaty provides that 
states, parties shall bear international responsibility for 
activities carried on by nongovernmental entities. It is 
crucial that article 6 of the Outer Space Treaty become central 
to the plans for commercial LEO development.
    What constitutes responsibility is part of a growing body 
of law that has strengthened and matured in recent years. The 
United States Government and, through it, the United States 
taxpayer, will ultimately be responsible if it is deemed 
necessary because of events--will ultimately be deemed 
responsible for reparation if it is deemed necessary because of 
events arising from U.S. nongovernmental activities.
    The government's responsibility exists in perpetuity. 
Withdrawing from or altering the Outer Space Treaty can change 
this, but that is an option that is not favored either by the 
space industry itself or by the United States Department of 
State.
    A risk-sharing regime has been established for launching 
and reentry services. An analogous risk-sharing regime should 
be developed for all stages of the planned U.S. exploration 
roadmap in which nongovernmental actors will be part of the 
roadmap space activities.
    The second legal point is that the United States' space 
station obligations remain in force even after transfer of 
station elements to nongovernmental commercial entities. The 
IGA, the International Space Station Intergovernmental 
Agreement, is a remarkable space law achievement. It has 
governed space station cooperation for 15 states over 3 
decades, and it is described in more depth in my statement.
    An essential feature of the International Space Station 
Agreement is that the transfer of ownership shall--and I quote, 
``The transfer of ownership shall not affect the rights and 
obligations of the parties,'' end quote. Therefore, if the 
space station transition will include, quote, ``transfer of all 
or parts of the station itself to commercial entities, 
including exercise of ownership or equipment,'' end quote, then 
the United States will still have the same rights and 
obligations that were in force prior to the transfer.
    Changing post-transfer obligations will require at a 
minimum renegotiating post-transfer rights and obligations 
among space station partners. This moves the issue of U.S. 
post-transfer obligations more into the realm of politics than 
law, increasing uncertainty regarding the degree, the nature, 
and the duration of U.S. obligations.
    In conclusion, there are legal and economic forces at play 
that can expose the United States Government and the U.S. 
taxpayer to substantial, recurring, long-term obligations that 
can result in hard-to-quantify financial obligations. 
Development of low-Earth orbit and the station is beginning at 
a time when the current value of the space economy is being 
questioned, when recent U.S. national space law increasingly 
places more of the cost of industry risk-taking onto the U.S. 
taxpayer, and when recently enacted U.S. national space law has 
created an uncertain legal environment by the use of illusory 
language that is mostly aspirational and repetitive and creates 
little black-letter law. It is in the U.S. national interest 
for the Subcommittee to consider these forces going forward.
    Thank you for your work to develop the law of space.
    [The prepared statement of Dr. Gabrynowicz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Dr. Gabrynowicz.
    And before we move into questions, I'm going to take a 
moment of personal privilege to recognize two young women that 
are here today who I think are attending their second hearing 
in 2 days. And as we talk about these important issues, we have 
Elsa and Phaedra Curry, who I know have grown up in this area, 
that we talk about the importance of investing in the future 
and inspiring future generations, so I just want to take a 
moment--go ahead and stand up and say hello. Yes. This could be 
our next generation of scientists.
    OK. Now at this point we'll begin our first round of 
questions.
    So clearly there are many issues that we have to tackle, 
and it's important that as we're looking forward, we take all 
of these things into account about how we do this in a way that 
is sustainable, that is fiscally responsible, that encourages 
economic development, that allows NASA to move to a new 
iteration of what it means for us to explore and do science in 
space. So I'm going to try and get through a number of 
questions as quickly as possible because I think we've got a 
lot of important issues to tackle.
    So, Mr. Gerstenmaier, I would like to start with you 
because when we're considering this transition and how we're 
going to ensure that our national interests and activities in 
low-Earth orbit can continue without, as Ranking Member Babin 
put it, a capabilities gap, I think that's one of the major 
questions that we have to face, as well as the legal issues in 
how we make that transition. There are many questions that need 
to be answered. I'm going to run through a few of them and I 
will submit some for the record but highlight a couple just to 
set the stage.
    One, what are the costs to NASA and international partners 
of NASA's proposal to transition its ISS activities to 
potential commercial space station?
    Two, have you carried out a cost-benefit analysis of all of 
the potential options for an ISS transition, including a NASA-
developed smaller follow-on platform to handle NASA and 
international partner research?
    Three, did you carry out a market analysis of commercial 
activity in low-Earth orbit?
    Four, what is the value proposition for the U.S. taxpayer 
of NASA's planned investments in stimulating commercial LEO 
market supply and demand?
    Five, how much is the commercial sector willing to invest? 
Who would own a commercial platform and who would own the data 
from NASA research conducted on a commercial space station? How 
much money would the commercial plan save as compared to NASA's 
current ISS expenditures, and when would those savings be 
realized?
    And finally, what is the plan B if commercial platforms or 
alternative models of ISS operations don't prove feasible 
either technically or financially? So those are the stage 
setting.
    I'd ask, Mr. Gerstenmaier, if you would address if you've 
carried out a cost-benefit analysis and if you know how much 
the commercial sector is willing to invest.
    And, Mr. Stallmer, I'd ask that second question of you to 
follow on.
    Mr. Gerstenmaier. So the way we're kind of approaching this 
is last month we've--first of all, we spent 1 year asking the 
commercial sector what their interests were in low-Earth orbit 
and what they needed from NASA to understand the environment. 
And what we got clearly from those 12 studies was there was 
lots of uncertainty about what was available, what the 
constructs were, what they could do on station, how much it 
would cost, those kind of things. So what we did a month ago is 
we tried to define for them all these key parameters that they 
said they needed through these studies. So we gave them the 
five things I described to you that they have available. Now 
it's up to them to see if they can put together a business 
plan, generate revenue from that, where they see the market 
potential.
    We define what NASA's long-term needs are, what NASA needs 
to spend annually for space station activities in the future. 
So we believe we've given the private sector now all the 
parameters they need to give us back a business plan, and then 
we can start to begin to answer that series of questions that 
you asked us about cost-benefit and analysis, et cetera.
    So we've done our part. We've identified what's available, 
what we need, how much it will cost to find the constraints. 
It's now up to the private sector to give us back business 
plans that we can then start evaluating to turn that back 
around into cost-benefit analysis type of activities you 
described.
    Chairwoman Horn. Thank you. Mr. Stallmer?
    Mr. Stallmer. From a commercial perspective since 2000, 
right around the time that the space station was--became 
functional, the private sector has invested $20 billion, and 
much of that investment has gone to low-Earth orbit. As we're 
projecting on what the rate of return will be for the shuttle 
given NASA's investment cost, the global space community right 
now, the worldwide figures I think are--range anywhere from 
$360 to $380 billion of the global space economy.
    Within the next decade, several major institutions, Goldman 
Sachs, J.P. Morgan--or, I'm sorry, Morgan Stanley and others 
have projected that the commercial marketplace or the global 
space marketplace, which is all of space, to be a $1 trillion 
business. So, you know, short of the business plans that--I 
don't have them in hand to present to NASA right now, but the 
companies that are working with the International Space Station 
on the International Space Station are projecting this I think 
into the future.
    But I think the most important thing is the stability of 
knowing that the station will be there, beyond--it's hard to do 
a business plan for something that may not exist and how do you 
project out? So if we're talking about, you know, the space 
station going away in 2024, well, that's 4 1/2 years from now. 
If we can do 2028 or beyond I think makes for a better case for 
investment.
    Chairwoman Horn. Thank you very much. Professor 
Gabrynowicz, I think you've hit on a couple of very important 
points, and I just want to reiterate and ask a question about 
your observation regarding the legal challenges in the next 
generation of what we're looking at and that the development of 
LEO and ISS is beginning at a time when the current value of 
the space economy is being questioned. But to get to the last 
part of it right at the heart where the risk and reward and the 
liability lies, that the space law has created and the movement 
has created an uncertain legal environment that there's very 
little black-letter law.
    And so my question to you is, what do you see as an 
effective pathway to addressing those issues and creating an 
effective and enforceable body of law?
    Dr. Gabrynowicz. Well, to begin with, if we have black-
letter law, it is law that actually authorizes, requires, or 
prohibits action. What we have had since about 2014, 2015 are a 
number of statutes that rely on reaffirmations and sense-of-
Congress provisions. None of these create law. There's a 
pattern in these statutes where there's a congressional finding 
or the sense of Congress, and then the requirement is to 
produce a study and to bring it back to the relevant committee, 
and so there's a lot of activity going back-and-forth--
regarding studies that are intended for future action, but most 
of these statutes don't actually authorize, prohibit, or source 
action. And if one were to go over these statutes, you'd see 
large chunks of numbered pages that are simply opinions and not 
law. Even a sense-of-Congress provision, even if it's 
incorporated into a bill, it does not create law. And I don't 
remember the numbers now, but I've gone through these statutes, 
and a number of them have 15, 20 sense-of-Congress provisions 
in one bill.
    Chairwoman Horn. Thank you very much. I have many more 
questions, but we're going to pass the time, so turn it over to 
Ranking Member Babin for his.
    Mr. Babin. NASA just released details highlighting its 
plans for the low-Earth orbit commercialization. The intent of 
the plan is to facilitate private-sector use of low-Earth orbit 
to offset the government's costs on LEO so that NASA can focus 
on deep space exploration. And the focus of the plan appears to 
be focused on selling access to the ISS.
    And, Mr. Gerstenmaier, will this offset NASA's costs for 
ISS transportation and operations, and if so, by how much? And 
if not, then why decrease NASA's utilization?
    Mr. Gerstenmaier. Yes, so the intent is not to lower NASA's 
cost for this activity. The idea is to essentially allow the 
commercial sector to experiment with revenue-generating 
activities on board station. And for that we want to recoup 
some of the cost associated with the activities for which 
they're using on station, and that was the pricing policy that 
we placed for them. It's not an absolute pricing policy, but 
gives them an idea of how to build a plan. And the idea is then 
can they then look at--from that determine were there a private 
station on their own that they built could be used, and then 
that's something NASA could then acquire services from in the 
future.
    Mr. Babin. OK.
    Mr. Gerstenmaier. So the purpose of that was to allow them 
to essentially experiment with revenue-generating options and 
concepts moving forward, and we didn't take things away. We 
made available to them 5 percent of the available time on ISS, 
and that 5 percent we can remove from our other activities and 
move forward so we still protect our basic research, we still 
protect the fundamental research needed for exploration and 
human health and other aspects.
    Mr. Babin. OK. Will revenue derived from the ISS 
commercialization plan go back to the Treasury or will it stay 
with NASA? And what oversight will Congress and the taxpayer 
have on funds derived from the taxpayers' significant 
investment in the ISS?
    Mr. Gerstenmaier. Again, our focus really isn't on 
capturing revenue.
    Mr. Babin. OK.
    Mr. Gerstenmaier. The intent is to allow them to 
experiment----
    Mr. Babin. Sure.
    Mr. Gerstenmaier [continuing]. And then later in the future 
where they now have their space station to serve other purposes 
other than the government's purpose, then we're one user of 
many. Then we're buying from a larger service, and that lowers 
our cost for future activities. But the intent is not to 
generate revenue from ISS.
    Mr. Babin. I understand. And, Mr. Martin, recent reports 
from your office have highlighted the need to develop new 
spacesuits both for future use in the microgravity environment 
of LEO for extravehicular operations and for future deep space 
missions and surface operations. Our current extravehicular 
mobility units were designed in the late 1970s, but astronauts 
have nearly drowned from water leaking into their helmets, and 
the current astronaut corps would very much benefit from a 
larger variety of suit sizes.
    Future spacesuits for surface operations were postponed 
years ago after a contract protest and deferments under the 
previous Administration. How important is the ISS for NASA's 
testing of the next generation of spacesuits?
    Mr. Martin. It's critical. It's critical for testing the 
EMUs (Extravehicular Mobility Units)----
    Mr. Babin. OK.
    Mr. Martin [continuing]. And I think NASA has a plan to get 
the next--it's called the xEMU suit up on station by 2023.
    Mr. Babin. OK. Great, thank you. Good news.
    And then, Mr. Stallmer, recent IG (Inspector General) 
reports and a report from the Science and Technology Policy 
Institute were pessimistic about the potential of the private 
sector offsetting government's funding in LEO. Can you comment 
on the private sector's perspective of LEO commercialization, 
and is this something that the private sector could provide 
private capital for or does the private sector see this as 
another opportunity for more government money?
    Mr. Stallmer. Yes, I saw that report, and I somewhat 
disagree with the assessment, the pessimism of what markets are 
there. As we were talking about offsets, I don't think the 
station was designed as this economic engine, you know, for--in 
low-Earth orbit. It started off as a scientific platform. But I 
do see the investment that the private-sector community is 
making.
    For instance, the Space Angels network, which is--started 
off as a small group of small investors into space making 
minimal--smaller investments is now over 200 individual 
investors that are investing in these companies that are going 
to be doing work on the International Space Station.
    So I don't see a trend of companies coming up to the Hill 
to ask for more and more money for the station. I think it's 
what we're looking for is stable policies that we know that we 
can work within the boundaries of the space station. So----
    Mr. Babin. Excellent. Thank you. Thank you very much.
    And, Dr. Gabrynowicz, NASA's plans allow for private 
astronauts on the ISS. Current law allows for government 
astronauts under the current statute. What is a private 
astronaut under the current statute, and what are the 
differences in these names from a practical perspective and 
also from a legal perspective?
    Dr. Gabrynowicz. Thank you. Well, as the designations 
indicate, a government astronaut is an employee of the Federal 
Government, and as such, there are legal rights and privileges 
that astronauts have as well as restrictions. It's roughly 
analogous to being a member of the military. You have certain 
rights and obligations that a civilian does not have. A private 
astronaut would not be a government employee. Their 
relationship would be based on for whom they work or if they 
work for themselves, at whose direction are they taking 
instruction. Are they acting as an agent for an entity? And 
therefore that person's rights and obligations are going to 
arise from that relationship.
    But then there's the additional overlay that if you have a 
private-sector astronaut who is a nongovernmental actor, then 
ultimately the United States is responsible for that astronaut 
anyway. There's that additional overlay.
    And I just want to give you a little background as to why 
that responsibility exists because it's very important to the 
United States' values. When the Outer Space Treaty was being 
negotiated, it was the position of the Soviet Union that only 
nation-states were legitimate space actors. And of course the 
United States couldn't agree to that and said no, private 
entities are also legitimate state actors.
    Well, a compromise was made between the Soviet and the 
American position, and that compromise was that nongovernmental 
space actors will be authorized and continually supervised by 
the Nation that is party to the treaty. So that supervision, 
that authorization is the source of the right of the private 
sector to be in space.
    And the flipside of that coin is because they have to be 
authorized and continually supervised, they are--the United 
States is internationally responsible for them. So that 
responsibility goes hand-in-hand with American values of 
private activity.
    Mr. Babin. Absolutely. Thank you. Very fascinating. I 
appreciate it. I yield back.
    Chairwoman Horn. Thank you very much. And thank you, Dr. 
Babin. I think one of the things that is clear from the 
questions from me is that you ask many of the remaining 
questions I had that are very important, although there are 
more that--these are clearly very much a bipartisan issue in 
the best interest of NASA.
    And the Chair recognizes Chairwoman Johnson for 5 minutes.
    Chairwoman Johnson. Thank you very much.
    In line with the questioning that just happened, 
Professor----
    Dr. Gabrynowicz. Joanne.
    Chairwoman Johnson [continuing]. Gabrynowicz, as we 
consider the Administration's proposal for the ISS 
commercialization, I was struck by your statement that there 
are legal and economic forces at play that can expose the U.S. 
Government and the U.S. taxpayer to substantial recurring and 
long-term obligations that can result in hard-to-quantify 
financial obligations. What do you think are the most 
significant potential financial obligations that need to be 
considered before we sign off on NASA's commercialization 
proposals? And what legal risk are we should be concerned that 
the U.S. Government might be assuming?
    Dr. Gabrynowicz. OK. The--I cannot speak to what are the 
most significant risks. Those are engineering and science 
questions. And I would have to direct you to speak to the 
engineers and the scientists who would tell you where the risk 
is, what can go wrong in terms of science and engineering.
    In terms of what the United States would be responsible 
for, again, this is why it's unknown. This is all going to be 
very fact-dependent on what happens when, where, and what the 
results are. As I'm sure you're aware, the elements in--of the 
space station are registered by the nations who put them in 
there, so if you're in the American--one of the American 
modules and you go to the Japanese module, you're going from a 
place where U.S. national law applies to a place where Japanese 
law applies. They're like little tiny embassies. Well, not so 
tiny; they're pretty big.
    But it's going to be very--they make great hypothetical 
questions on my exams because it's very fact-dependent as to 
what the U.S. has to be prepared for. But the bottom line is 
there must be the awareness that under the Outer Space Treaty 
the United States is internationally responsible for whatever 
that fact pattern may arise to be. And under the International 
Space Station Agreement, the obligations will continue after 
transfer unless there is a new agreement reached with the 
partners that supersedes the current International Space 
Station Agreement.
    Chairwoman Johnson. Thank you very much. Mr. Gerstenmaier, 
reducing the risk of human missions to Mars and other 
destinations have long been a prime justification for 
continuing operations for the ISS. Mr. Martin's prepared 
testimony notes that there are a series of human health risks 
and technology gaps required for future missions to the moon 
and to Mars that will not be completed on the ISS by the mid-
2020s. At the same time, NASA's low-Earth orbit commercial 
development plans propose providing commercial entities access 
to NASA's available crew time, power, and other resources that 
otherwise could be used to make progress on the human health 
and technology research.
    Given the limited life of the ISS, how do you justify using 
NASA's constrained ISS resources to try to stimulate commercial 
activities such as space tourism and marketing rather than 
using these resources to reduce the risk of human missions to 
Mars?
    Mr. Gerstenmaier. We are very focused on reducing the risk 
associated with Mars both technically and also from a human 
physiology standpoint. That is our primary focus. We're 
spending a lot of research time on both of those activities. 
But what we've done is we've created this 5 percent piece 
beyond that of which we can allow this experimentation and 
commercialization. We think that's important because then at 
some point this station will wear out. We've identified a long-
term need for us to do this technology development and research 
in the future. We're going to need some other facility to do 
that. What we'd like to do is not be in the position where NASA 
and the U.S. Government have to build that facility. We would 
like to be able to use a private facility. So we think this 
small portion at a the time being available to prepare for that 
future allows us to ensure that we can keep a research facility 
in low-Earth orbit to investigate the technology into human 
factors we need to get ready to go to Mars.
    Chairwoman Johnson. Thank you very much. My time is 
expired.
    Chairwoman Horn. Thank you, Madam Chairwoman. The Chair now 
recognizes the Full Committee Ranking Member Lucas for 5 
minutes of questions.
    Mr. Lucas. Thank you, Madam Chair.
    Mr. Gerstenmaier, let's step back and look at a broader 
perspective. NASA recently released summaries of the private 
sector's low-Earth orbit commercialization plans. Did NASA 
learn anything from these studies that it did not expect? Were 
you surprised by anything?
    Mr. Gerstenmaier. Yes. I think the takeaway that we saw 
from the plans was the diversity and the options of what the 
companies thought. For revenue generation, what they thought 
the cost would be associated, there were a lot of differing 
opinions from their perspective of what they saw the benefits 
of space research were. So I think the diversity of the 
responses we got surprised us. We thought they would be more 
aligned in one specific area, so that's why we pursued this 
five-point plan----
    Mr. Lucas. So I assume that was a pleasant surprise then?
    Mr. Gerstenmaier. It's interesting because--but it's hard 
for us now to pick then a concrete path to go forward from 
those studies.
    Mr. Lucas. Along that line, Mr. Gerstenmaier, in 2015 we 
saw reports that the Russians intended to detach their modules 
in 2024 to form their own habitat in low-Earth orbit. If in the 
event this were to happen, how should the U.S. engage its 
international partners? And along with that, would a Russian 
departure from the ISS require further U.S. investment in ISS 
to keep it running without a Russian segment?
    Mr. Gerstenmaier. I think that's an interesting 
hypothetical discussion. There's lots of dependencies between 
the Russian segment and the U.S. segment. We provide power to 
them, we provide--approximately 1,000 commands a day to go 
through USS--U.S. assets, and those are Russian commands going 
to their side. So I think in reality we're going to have to 
stay together as an international partnership whether we really 
want to or not. And we can talk about things hypothetically, 
but in reality we're part of the international partnership that 
needs to work together, and we'll continue to work together in 
the future.
    Mr. Lucas. So we're hooked at the hip then? That makes 
sense.
    Mr. Stallmer, does maintaining a presence in low-Earth 
orbit necessarily mean the presence must be a NASA presence or 
could American companies maintain that presence? And along that 
line, does maintaining any sort of crew presence in low-Earth 
orbit necessarily mean maintaining a presence on the ISS in 
particular?
    Mr. Stallmer. Sir, I think it's both. I think that NASA 
should retain a permanent presence in low-Earth orbit, but I 
think there's also a commercial element as we're seeing 
private-sector habitats being developed and potentially private 
space stations being developed. I think you can't have it both 
ways. I think the commercial sector will provide services, and 
I think NASA eventually will be a customer of those services. 
So I think it's a good balance that we have to look forward to.
    Mr. Lucas. Thank you. And, Madam Chair, using my precious 
time precisely, I now yield back the balance.
    Chairwoman Horn. Thank you, Mr. Ranking Member. The Chair 
now recognizes Mr. Crist for 5 minutes.
    Mr. Crist. Thank you, Madam Chair. And thank you, 
panelists, for being with us today.
    I think we can all agree that performing research in 
microgravity is critical to achieving scientific and 
technological advances, which is why I support an extension of 
space station operations beyond 2024. However, there will 
eventually come a time when the station is no longer usable 
simply because it has reached its operational lifespan.
    Mr. Gerstenmaier--and I apologize if I mispronounced it--
when this occurs, what do you envision for the future of 
microgravity research? Specifically, do you see the need for 
some sort of national space-based lab to support research and 
development beyond the useful life of the space station?
    Mr. Gerstenmaier. Yes, in the plans we provided to 
commercial industry, we identify what we believe is NASA's 
long-term needs for space research. And included in that is a 
continuation of doing research for NASA's needs, both 
technology development and also microgravity research.
    Mr. Crist. Thank you. Again to you if you don't mind, I 
assume that increased commercialization of low-Earth orbit will 
result in additional traffic to and from the station. Can you 
discuss NASA's plan for space traffic management under a 
commercialized low-Earth orbit situation?
    Mr. Gerstenmaier. Even today, we have a visiting vehicle 
specification that essentially defines the operating 
environment around space station. So we have certain zones 
where vehicles can transit and come into, but they need 
authority to come into those, so there's a very methodical 
approach of how we do vehicle traffic management in a way 
almost similar to an airport here terrestrially but it's around 
space station. I propose we would use that same kind of thing 
in the future for another space station or the space station as 
it moves forward. But it's becoming a very busy environment for 
us, and the monitoring and activities of the folks at the 
Johnson Space Center are critical for those----
    Mr. Crist. Thank you, sir. Mr. Stallmer, as you know, NASA 
announced last month that it will allow two flights to the 
space station each year for private astronauts. Do you believe 
it's feasible to begin these flights with an all-commercial 
astronaut crew, or would it be better to start with missions 
that include both NASA and private astronauts to help build and 
establish this market?
    Mr. Stallmer. I think it would be the latter. I think using 
NASA astronauts as well as commercial astronauts is a prudent 
approach. I think we're seeing in many different markets--later 
this year, we're going to see Virgin Galactic and Blue Origin 
large commercial astronauts in a suborbital fashion. And of 
course with the Commercial Crew Program coming online I think 
it's going to increase the access to utilization of the space 
station. I think it's a great way of NASA leaning forward to 
try to greater utilize the International Space Station for 
commercial astronauts and the science they can do.
    I think if you look at it from a research perspective, if 
the private company pays for that astronaut to go up to the 
International Space Station and conduct studies, I think that's 
part of the economic engine that we're looking to develop from 
generating more revenue from the space station. So I think it's 
a very prudent approach by NASA.
    Mr. Crist. Thank you. And then my last question for any of 
the panelists, what in your opinion can NASA do to help 
encourage a commercial astronaut transportation market? If you 
have an opinion.
    Mr. Stallmer. For NASA to encourage the greater utilization 
of commercial astronauts?
    Mr. Crist. Yes, sir.
    Mr. Stallmer. I think it's--to highlight the opportunities 
for the science that is up there. I think when we see some of 
the breakthrough technologies--and NASA has done a great job of 
showcasing the breakthrough technologies that have been 
developed on the International Space Station. But if companies 
can see this as a platform for research, whether it be 
pharmaceutical research or, as the Australians were talking 
about, having--to be able to consume beer in space, you know, 
and they're working on that diligently, or if it's just the 
technology to hit a golf ball 10 yards further I think, you 
know, understanding the technology that microgravity offers, 
it's limitless on what we can do. So I think as NASA and the 
partnership with commercial sector I think working together to 
promote that and the possibilities, I think that's what's going 
to really encourage this market to grow.
    Mr. Martin. I guess a note of caution just to point out 
that any--at least the initial steps of commercialization of 
low-Earth orbit is heavily subsidized by NASA, so the figures, 
the cost figures that NASA put out, the $35,000 a day for an 
astronaut or $1 million for a 1-month stay, that's extremely 
heavily subsidized almost as a loss leader to get--to entice 
and encourage the market.
    Mr. Gerstenmaier. There's a few interesting biological 
things that we've seen on station I think that have tremendous 
benefit. One is a lab--it's called essentially lab on a chip or 
biology on a chip. It turns out that, for whatever reason, some 
functions happen faster in space like immune system 
degradation, et cetera, so there's an idea that you can 
actually take liver cells, which are used to determine whether 
a pharmaceutical product will be toxic to you or not, in the 
microgravity environment because those processes are speeded 
up, it would typically take a year to get results on the Earth, 
can occur in several months on station. So we think there's a 
huge benefit potentially for pharmaceutical companies to bring 
drugs to market faster by doing this lab-on-a-chip kind of 
technology on station.
    We're also looking at 3-D printing of organs in space. 
Because there's no gravity, you don't have to have any material 
to make the organs actually resist gravity, so now you could 
actually print essentially organs of much larger size. So the 
idea is for us to expose the private sector to these 
interesting innovative ideas that are transformative and then 
let them take that through their ingenuity and innovativeness 
and then turn that into a marketable product to move forward. 
But those are some of the aspects that are very intriguing.
    Mr. Crist. Thank you. I yield back, Madam Chair. Thank you.
    Chairwoman Horn. Thank you, Mr. Crist. The Chair now 
recognizes Mr. Brooks for 5 minutes.
    Mr. Brooks. Mr. Stallmer, the national lab is a key driver 
of private activity on board the International Space Station. 
What setbacks have you seen or experienced that have held back 
the commercialization of low-Earth orbit, ISS activities?
    Mr. Stallmer. I wouldn't say setbacks per se, and I'm sure 
others can speak to technical setbacks that they may have had. 
I see more of opportunities. I think from a timeline 
perspective certainly the funding questions and the timeline 
with the extension, streamlining some of the policies that 
we're looking at in some of the space policy directives on 
streamlining policies, that's been slower than we would hope 
for.
    But from a more optimistic perspective, I see the progress 
that commercial industry has made. When I--one of the reports 
was cited that were pessimistic of the growth of, you know, on 
commercial industry. I also read a report about 10 years ago 
that was pessimistic about reusable launch vehicles, and 5 
years later we had reusable launch vehicles. And now we have 
over 22 vehicles that were launched and reentered the Earth's 
atmosphere, and we're reusing them again, reducing the cost to 
access to space.
    I see the growth in industry from what companies do--
startup companies, whether it be electric propulsion, you know, 
for satellite--small satellite boost or the things, you know, 
that are going on in the space station, companies like Techshot 
and Space Tango about this manufacturing human cells and things 
of that nature.
    So will there be setbacks and have there been? Absolutely, 
and there's different timetables. And I think we're moving at 
an aggressive pace, but I think we need to as a Nation. I think 
we--for 50 years, as we celebrate Apollo, you know, next week 
and what we've done over the past 50--what we did 50 years ago, 
I think it's a little disappointing what we've done in the last 
50 years, not--the space station is a remarkable modern marvel, 
and I'm not knocking that at all, but I think as a Nation we 
can do better. I think we can do a lot better. And I think--and 
I know the commercial sector will be helping do that.
    Mr. Brooks. This is a question for any who wish to opine on 
it. In your judgment, either in percentage terms or dollar 
terms, how much of a taxpayer subsidy is there for 
commercialization at the International Space Station?
    Mr. Martin. Over the past 12 to 14 years NASA has invested 
approximately $17 billion to help the commercialization of both 
cargo transportation and crew transportation. That does not 
mean that the companies involved in both of those enterprises 
also don't have skin in the game. They have significant 
resources but $17 billion investment in that. As we've all 
indicated, it costs upwards of $3 to $4 billion per year to 
maintain and operate the station, so, as you can see, 
significant subsidies.
    Mr. Brooks. My hometown is Huntsville, Alabama. We like to 
call ourselves the birthplace of the American space program. 
And, as such, I've heard projections but rather optimistic on 
occasion that we're just around the corner from having 
commercialization of space that does not involve much in the 
way of taxpayer subsidies either by our country or others as 
the case may be with a joint facility like the International 
Space Station. What needs to be done to truly make 
commercialization a solely private venture? Is there anything 
Congress can do where we can eliminate these taxpayer subsidies 
of these private efforts?
    Mr. Stallmer. I think when you categorize it as subsidies 
I'd like to look at more of the advancements that the 
government assistance has created. And, as we see, you know, 
for instance, on the commercial cargo program, with the 
government--you know, the investment that the government has 
made on that program coupled with the investment of these 
private companies, we now have two fully capable launch 
vehicles that are providing routine access and routine, you 
know, resupply to the International Space Station.
    So to put a price tag on that investment, well, now we 
have, you know, these two vibrant companies that are providing 
services, as well as a--that we're going to see cargo with 
Boeing and SpaceX later--I'm sorry, crew with Boeing and SpaceX 
later this year. The U.S. dominates the global commercial 
marketplace now. You could not say that 10 years ago where we 
had less than 10 percent of the global market.
    So now the U.S. industry, on launch, on small sat, on 
spacecraft, we are the dominant leader. So whatever that number 
of investment that the government has made I think it has paid, 
you know, tremendous dividends to the American public, and I 
think it will continue to pay that with the investment that we 
have in the International Space Station.
    Mr. Brooks. Thank you, Madam Chair. I yield back.
    Chairwoman Horn. Thank you, Mr. Brooks. The Chair now 
recognizes Congresswoman Hill for 5 minutes.
    Ms. Hill. Thank you so much, Madam Chair.
    Mr. Gerstenmaier, earlier this year, NASA and partners work 
to upgrade the batteries on the International Space Station to 
provide greater efficiency and power to the growing number of 
users on the station, as well as to prepare for continued 
upgrades in the years ahead. This is just the latest example of 
ongoing efforts that have been made to continue to improve ISS 
based on new technologies and grow its capabilities. What other 
efforts is NASA taking to improve power, life support systems, 
and other elements to ensure that ISS continues to support 
astronauts and science needs for the years ahead?
    Mr. Gerstenmaier. Today, we're actually testing the next 
generation of life support systems that will be used 
potentially on journeys to Mars, so they're much more efficient 
from a water-use standpoint, recycling carbon dioxide. We've 
also just recently increased the bandwidth coming down from 
space station to 600 megabits per second. That is now the 
standard every day, and we've increased the number of video 
channels coming down so we can do more interactive and virtual-
reality activities with space station. So those are some of the 
examples of the improvements. And we have more battery upgrades 
coming this fall.
    Ms. Hill. Great, thank you. Also, Mr. Gerstenmaier, as you 
know, the Senate has voted repeatedly to extend the ISS through 
at least 2030, and the majority of the House voted for a 
similar provision last year. As this issue comes up again in 
the new Congress, how important is certainty of ISS extension 
to you, our international partners, and other users as they 
plan for crewed missions and experiments in the years ahead?
    Mr. Gerstenmaier. We just had a discussion on how we could 
help commercial industry transfer or take over more of the role 
in low-Earth orbit. I think that's very difficult to predict 
exactly when that's going to occur. I think that timeframe is 
going to be hard. It's going to take longer to create a new 
economy than I think we've envisioned, so I think we need to be 
careful we don't set an arbitrary or artificial deadline. We 
need to essentially provide some certainty so industry and the 
commercial sector can understand what's coming in the future, 
they can plan for that, and then they can move forward. So I 
think getting a plan of how that moves forward and when that 
occurs, then we have a chance of envisioning this world where 
the commercial sector is taking a larger portion of the cost 
associated with low-Earth orbit.
    Ms. Hill. And right now, we don't have that certainty or 
that plan of transition?
    Mr. Gerstenmaier. No, we have varying numbers depending on 
where we talk, between what Congress says, the Administration 
says, what NASA's plans are, et cetera, I think some certainty 
about that. But again, not setting an arbitrary deadline but 
maybe more setting criteria such that we don't create this gap 
that was talked about earlier.
    Ms. Hill. Right.
    Mr. Gerstenmaier. The gap would be unacceptable, but we 
need some plan to do that.
    Ms. Hill. Right. And, Mr. Martin and Mr. Gerstenmaier, I 
understand that NASA and partners have already worked to 
certify the ISS for use through at least 2028, and these 
studies indicated that its lifespan could extend well into the 
2030s. Can you talk about the status of these studies and what 
other steps NASA is taking to ensure that ISS can be extended 
and healthy for many years?
    Mr. Gerstenmaier. We've done the structural studies through 
2028. We've done other studies. These improvements I talked to 
you about earlier, those are all part of essentially allowing 
us to do more with station. These life support systems we're 
checking for the future, actually allows us to have more crew 
on board station.
    The thing that we've got to weigh again is, you know, we 
are spending money in low-Earth orbit that we could be spending 
in deep space, so we need to make sure that we have the right 
balance between those two moving forward.
    Mr. Martin. And I guess I would emphasize that these are 
opportunity costs. If you continue the station for any number 
of years past 2024, that is approximately $3 to $4 billion you 
don't have available to pursue other exploration goals such as 
lander developments, such as Gateway, such as preparing and 
bending metal for moving to Mars, so it is a--it's a choice. No 
one disputes that the ISS is just a critical element up there, 
but it's a question--again, absent substantial and sustained 
funding increase for NASA.
    Ms. Hill. Got it. Well, thank you all so much. I really 
appreciate it, and I yield back.
    Ms. Horn. Thank you. Thank you, Congresswoman Hill. The 
Chair now recognizes Mr. Posey for 5 minutes.
    Mr. Posey. Thank you, Madam Chair.
    Mr. Gerstenmaier, what are the main cost drivers for the $3 
to $4 billion operational cost of the ISS?
    Mr. Gerstenmaier. The major cost driver is crew and cargo 
transportation to and from ISS, and it's about the $1.8 billion 
of the $3 billion that----
    Mr. Posey. OK. Which factors affect the shelf life of the 
ISS?
    Mr. Gerstenmaier. Again, I think we've been doing a pretty 
remarkable job of maintaining station and upgrading systems and 
components through use of our crews and astronauts and 
engineering expertise. There are some components structurally 
that may wear out over time, and we need to watch those and 
monitor those, but we're actively tracking those and then 
looking on a----
    Mr. Posey. What kind of components would they be?
    Mr. Gerstenmaier. They'd be some of the truss elements, 
some of the large structural pieces. Solar rays will need to be 
replaced at some point and augmented, and we have plans to do 
that.
    Mr. Posey. OK. Could the ISS be mothballed?
    Mr. Gerstenmaier. Space station is designed to be crew 
operated, and so a lot of the systems really require a crew 
presence on board station, so essentially shutting station down 
and removing crew for an extended period of time would make it 
very difficult to ensure that we could bring the station back 
up when crew came forward or crew were available in the future. 
So it's not easy to essentially stop operations without the 
crew. We need to keep the crew presence on board station to 
keep the vehicle maintained.
    Mr. Posey. Would it be feasible even remotely to relocate 
the ISS, say, to an orbit around the moon?
    Mr. Gerstenmaier. We've looked at that. It's attractive but 
physically it just doesn't seem practical. The amount of energy 
to do that isn't there. The number of orbits if you even have 
low propulsion, you'd have to circle through the Van Allen 
belts multiple times over multiple months. And then by the time 
you get there, it's not physically possible to maneuver large 
pieces of station. You might be able to deconstruct and use 
small pieces of station, but generally, you're probably going 
to want to use those small pieces in the same roughly 
inclination orbit that space station is in today.
    Mr. Posey. OK. Mr. Martin, you mentioned that we've 
invested about $17 billion in the ISS.
    Mr. Martin. Seventeen billion in commercial cargo and crew 
transportation.
    Mr. Posey. OK.
    Mr. Martin. Significantly more in the ISS, upwards--the 
number is--what you're counting, but it could be $80 to $100 
billion over the 21-year life of the station.
    Mr. Posey. OK. What kind of investments have our partners 
made?
    Mr. Martin. The international partners pay for 
approximately 23 percent of annual station costs.
    Mr. Posey. OK. Mr. Stallmer, from an industry perspective, 
how has the public-private partnership benefited the ISS and 
LEO missions?
    Mr. Stallmer. I think it's greatly contributed. Companies 
like NanoRacks has invested $40 million. I think they're one of 
the larger investors on the International Space Station 
creating--they will be developing their own airlock for the 
International Space Station. I think that's going to be 
delivered in 2020, in that timeframe. So I think they're--you 
know, again, when you talk about--the numbers that Mr. Martin 
is talking about, yes, it is a large contribution, but I think 
it's what the vision of NASA is. Was NASA designed to be, you 
know, an economic driver or was it designed to be an agency for 
exploration? And I think we've got to look at what our 
priorities are and what NASA's priorities are in working with 
the commercial sector on this. And I think the partnership 
with--that NASA has had over the past 2 decades working with 
the commercial industry, the information sharing and the 
service sharing that we've had, I think it's only going to 
grow, so I'm very optimistic about that.
    Mr. Posey. How do you think the relationship could be 
improved?
    Mr. Stallmer. The--I think just the communication on the 
pricing, the stability on pricing, as they've recently 
released. I think--I think greater access--I think once we're 
able to launch American astronauts from American soil on 
American vehicles, I think that that type of partnership that's 
going to open up of having routine access to space I think 
we're going to see a lot more opportunities.
    I was inspired by Scott Kelly's book Endurance and what it 
took for a year on the space station and the challenges that 
they had and routine challenges, just regular preventive 
maintenance they need to do. And I think having this commercial 
access and not being dependent on a foreign nation to provide 
our astronauts access to space at, you know, rather large rates 
and the cost savings that will have, I think is going to 
greatly enhance the capabilities that the commercial sector and 
NASA can greater partner with. But I think we have a very good 
partnership, and I think Mr. Gerstenmaier's leadership has been 
outstanding on that front.
    Mr. Posey. Thank you. Thank you, Madam Chair.
    Chairwoman Horn. Thank you. Thank you. The Chair recognizes 
Mr. Olson.
    Mr. Olson. I thank the Chair, and welcome to our four 
expert witnesses.
    One thing we all agree upon, the activities of the ISS must 
keep going and expand in the future. We can't go back one step 
back. We can't do that. The question is without its future be 
the ISS, some expansion, some new experiment platform, maybe 
something here on the moon or something based on the moon? We 
avoid human debris fields for sure, but that's very expensive. 
And so, regardless, the International Space Station has been a 
great asset.
    I want to remind everybody what this space station has 
done. Every single day since November 2, 2000, we've had a 
human being in orbit on the International Space Station 230 
miles above our planet. And in fact our two honored guests over 
there, these two amazing ladies weren't born when the station 
went into orbit and became active, but we're here to make sure 
you have a space station or something like that to go to when 
you walk on the moon or walk on Mars and wave to us and say, 
hey, Energy Committee there, Science, Space, and Technology 
Committee, I'm on Mars, I'm on the moon.
    We all know, too, the ISS has done great wonders, great 
experiments we can't do here on Earth. A couple of examples, 
the Alpha Magnetic Spectrometer, AMS, it's been up there since 
2013, and it may have discovered the start of dark matter. As 
you all know, most of our universe is dark matter, and that's a 
huge benefit for human life.
    Also, as you guys talked about, the benefits for human 
health that we've learned through the International Space 
Station, for example, learning how to deal with muscle atrophy, 
also bone density loss and fluid shifts and just what we've 
learned, we've learned that Scott Kelly can now call his twin 
or could call his twin Mark shrimp for a few weeks because 
Scott was 2 weeks taller than Mark when he came back home after 
almost 1 year in space.
    I want to talk about going forward and making sure we keep 
this in International Space Station. That means we have a plan 
to stop fly or something by 2024 right now that could be 
extended. I want to ask the question of all of you starting 
with you, Gerst. How are our international partners engaged in 
this--do they want us to extend it, how long, what will they 
pay? I mean, again, we've got Japan, China, Russia, America, 
including the Republic of Texas, European Space Agency, 
Belgium, Denmark, France, Germany, Italy, Netherlands, Norway, 
Spain, Sweden, Switzerland, United Kingdom, all these nations 
are involved right now in the Space Station. How are they going 
forward with our plans? Do they want to go to 2024, longer, and 
what will they put up to help us go make those things happen?
    Mr. Gerstenmaier. I think in general the international 
partnership wants to continue using station. They see it still 
as a resource that has plenty of life in the future, and they 
want to continue to use it.
    There's a European ministerial at the end of this year, in 
November of this year, and at that time we should see a formal 
position from the European Space Agency (ESA) about their 
position of using station beyond 2024.
    Mr. Olson. Mr. Martin?
    Mr. Martin. Again, just a caution, every space agency, like 
every government, has a limited budget, so ESA's budget, while 
significant and important to maintenance of the International 
Space Station, is much, much smaller than NASA's. I've--from 
what I've read, they've shown some interest in being part of a 
Chinese--a planned Chinese space station set to launch and 
begin construction in 2022. I just don't know that their budget 
is large enough to continue their current commitment to the ISS 
past 2024, as well as partake in perhaps the Artemis mission 
with the U.S. or the Chinese space station activities.
    Mr. Olson. Mr. Stallmer?
    Mr. Stallmer. The United States is the global leader in 
space, and I think we need to continue to be that way. I think 
the international partnerships that we have on the space 
station are critical and most necessary, and I think we should 
continue to engage our global partners. But do keep in mind 
when you walk around the United States, the Republic of Texas, 
all over the world you see people wearing NASA T-shirts. It's a 
brand. You don't see people wearing other space agency--the 
Polish Space Agency or anything else, T-shirts. So I think 
that's critical to keep in mind. The leadership that NASA 
provides the world is imperative.
    Mr. Olson. And not to butcher your name, but Dr. G, any 
comments on----
    Dr. Gabrynowicz. That's what my students call me. Please 
feel free.
    And as a Gabrynowicz, I do not like you dissing the Polish 
Space Agency.
    Mr. Stallmer. I only do that because they're one of the 
newest space agencies around, and I don't know----
    Dr. Gabrynowicz. OK.
    Mr. Stallmer [continuing]. What their logo is, but I'm 
fully supportive of the Polish Space Agency and all global 
space agencies, except for two.
    Dr. Gabrynowicz. OK. Coming from a space law perspective, 
the reason why we have the Outer Space Treaty and other 
treaties is because the world faced its worst fears at the 
time, placing nuclear weapons in space. And people forget that 
the Outer Space Treaty prohibits putting nuclear weapons in 
space, which makes it one of the most important treaties of the 
20th century.
    But the treaty also provides for our highest aspirations--
that space is dedicated to peaceful purposes for all humankind. 
When the space station was first proposed by President Reagan, 
it was the height of the cold war. The Soviet Union was our 
enemy, and then a funny thing happened on the way to the space 
station. The cold war came to an end and the Soviet Union 
became the Russians and the Russians became a partner, and now 
here we are in the era of globalization. And we've had a space 
station for 30 years in which we have learned how to work 
together with one another. And each country that is in that 
station is making a commitment--financially, technologically, 
and otherwise--that, relative to their assets, is just as great 
as what the United States provides.
    And I would point out that Canadarm is a fantastic example 
of that. The Canadarm in terms of dollars is a relatively 
smaller contribution than some of the other bigger elements, 
but we would not have a space station without the Canadarm. So 
I think we need to think of the space station in terms of 
quality as well as quantity, and the quality of the 
relationships we have with 15 other nations through the 
International Space Station Agreement is not to be understated.
    Mr. Olson. I'm aware of my time, Chairwoman. I thank you so 
much. I want to remind you, though, there's a special countdown 
happening right now around Johnson Space Center in Houston, 
Texas. It's T minus 94 days and counting until the Texas 
Longhorns repeat and beat the Oklahoma Sooners. They boom them 
in Dallas, Texas. I yield back.
    Chairwoman Horn. I think you're being overly optimistic. 
And let's just be clear, it's OU-Texas, not Texas-OU for all of 
the Texans in the room.
    See what you started, Mr. Stallmer, you know, Polish Space 
Agency. Of course, Mr. Olson, thank you. Thank you very much.
    The Chair recognizes Mr. Waltz. Hopefully, the Floridian 
won't cause quite as many problems as our Texan over here.
    Mr. Waltz. Well, I do have to say thank you, Madam Chair. 
And we've heard a lot about Alabama is the home of space and 
the Republic of Texas, but I think we all know where space DNA 
really resides, which is in Florida and excited to celebrate 
the 50th anniversary of Apollo 11 coming up.
    So a lot of discussion today around the international 
aspects of the ISS. I am very focused also as a Member of the 
Armed Services Committee on what the Chinese in particular are 
doing in space. I think it is always worth remembering and 
reminding that the Chinese military is behind every major 
component of what the Chinese are doing in space, whether 
that's in their new space station or if they have manned 
research station on the moon. I put research in air quotes--on 
the moon. And that basically everything that NASA has done 
going forward or looking backward has not been in the same type 
of competitive and potentially hostile environment that we will 
look at going forward.
    So I think we all agree that American and NASA leadership 
in space must continue. We must maintain a low-Earth orbit. And 
please interject if you disagree that we must maintain LEO and 
we must maintain a presence and particularly if it's a 
competitive space going forward.
    But the disconnect seems like the white elephant in the 
room is whether this plan will actually work with 
commercialization and whether it will work in the timeline. And 
I'm hearing from the Inspector General some skepticism. Is that 
fair to say, that the plan will actually work to be able to 
take on that O&M budget of operating the space station in the 
timeline proposed?
    Mr. Martin. Skepticism is in an Inspector General's job 
description.
    Mr. Waltz. Sure. I know it's built-in.
    Mr. Martin. It is. It's a real concern. The $1.2 billion 
operation and maintenance annual cost of maintaining station.
    Mr. Waltz. Right.
    Mr. Martin. Correct.
    Mr. Waltz. So President Reagan put forward a plan 
approximately 10 years in advance. What is NASA's plan B? I've 
heard you ask when are we going to see that plan B that if the 
figures don't work and the private sector can't take it on, 
what's the decision point to extend beyond 2024, and then 
what's the decision point to extend beyond 2028 or to have a 
new platform in place? Mr. Gerstenmaier?
    Mr. Gerstenmaier. We have some time to decide for the new 
platform in place. That's not an immediate problem. I think we 
need to----
    Mr. Waltz. What is the time, is it 6 years then? If it's 
not 10, then is it 5 years, 6 years? In the military we 
forecast, right? What's that decision point?
    Mr. Gerstenmaier. It's probably about 6 years out or so, so 
that would probably be 2030 kind of lifetime and then back that 
up 6 years.
    Mr. Waltz. Assuming the 4-year extension?
    Mr. Gerstenmaier. Yes.
    Mr. Waltz. OK.
    Mr. Gerstenmaier. Yes. And so--but I think the more 
important thing is we need some stability and understanding for 
the commercial sector so they can plan. I think it's also 
probably not appropriate to assume that the private sector is 
going to take over all the cost of the capability we have in 
low-Earth orbit, but we can reduce that cost by using the 
private sector where we're now--we're not the only agency 
taking people to space. The private sector is doing that on 
their own through private astronaut missions, et cetera. So 
we're one of many customers. That reduces our cost some amount. 
How much we reduce that cost is important to us. We don't--I 
don't think we can predict that, but we need to try to drive to 
that situation.
    What we need to avoid is we need to avoid the gap, as we 
discussed here, especially in light of the Chinese space 
station, which could be in orbit, a portion of it even as early 
as this year or next year. We need to make sure that we don't 
create a gap where we the U.S. don't have a facility in low-
Earth orbit----
    Mr. Waltz. Absolutely.
    Mr. Gerstenmaier [continuing]. And there's only the 
Chinese.
    Mr. Waltz. Absolutely. Hundred percent agree.
    Mr. Stallmer, in the time I have remaining, the FAA 
(Federal Aviation Administration)--switching tracks here. The 
FAA recently released a notice of proposed rulemaking regarding 
regulatory reform for launch and reentry of commercial 
vehicles. Obviously, launch is critical to everything we've 
discussed today with projections of getting up to 50-plus 
flights by 2021. What are your thoughts on how industry views 
the draft rules that are out? What needs to be addressed moving 
forward to enable American companies and private sectors to 
operate efficiently?
    Mr. Stallmer. That's a great question. In short, we have 
concerns. We have concerns. There is a directive put out that 
we're going to streamline, you know, the regulatory burden that 
a lot of the industry is facing. And I say burden. It's a 
burden because it hasn't been updated. The--what the launch 
industry was back in the mid-'80s is different from what the 
launch industry is today in 2019. There's more commercial 
launch vehicles than ever. We have, just for NASA alone, four 
vehicles, you know, that will be servicing the space station 
with reusability.
    So these issues need to be addressed, and I think with this 
rulemaking process I think the FAA really needs to hear--
especially the Office of Commercial Space Transportation really 
needs to hear what industry has to say on how their industry is 
being regulated. It has to--it can be so--it has to be 
performance-based rather than so prescriptive-based. And I 
think the FAA needs to work more with industry in understanding 
what their needs are. And we're trying to get there. We're 
trying to get there. We do have a deadline of July 30, which is 
closing in on us.
    Mr. Waltz. Madam Chair, if you'll indulge me, could you 
submit a more fulsome response for the record?
    Mr. Stallmer. I certainly can.
    Mr. Waltz. Thank you.
    Mr. Stallmer. I certainly can. Thank you.
    Chairwoman Horn. Thank you, Mr. Waltz. Mr. Weber.
    Mr. Weber. Thank you, Madam Chair. And as a card-carrying 
member of the Republic of Texas, regarding the Texas and 
Johnson's Space Center's preeminence, let me just say that my 
colleagues can feel free to express their confusion and lack of 
understanding anytime they want to.
    And, Madam Chair, without objection, I'd like that read 
into the record. I'm just saying.
    Mr. Gerstenmaier, when we partner with industry, how do we 
ensure that we don't take jobs away from our NASA facilities? 
Let me qualify that. My district, half a mile south of the 
Johnson Space Center has thousands of people that work in my 
district. It's huge for us as a country and national security, 
and I'll talk about that more. But how do we ensure that we 
don't take jobs away from NASA? And I like to think about the 
NASA T-shirt by the way. All you see is NASA T-shirts. Who was 
that other smaller space agency?
    Mr. Stallmer. I don't recall.
    Mr. Weber. Oh, you don't recall? OK. All right. For 
example, Boeing is subcontracting back to JSC to handle mission 
control for the Starliner missions. My district is home to many 
of those great NASA employees who work there, and some 50 
percent of the JSC jobs are tied to ISS. So I think it's 
critical that we ensure that the commercialization of ISS will 
still model that of the Space Shuttle and ISS programs where 
integration, operations, and other activities are still done. 
Did I mention Johnson Space Center is close to me?
    So Mr. Gerstenmaier, how do we ensure that that happens, 
that we don't want those jobs to go away?
    Mr. Gerstenmaier. You know, again, I think the right role 
for NASA is to do the long-term research, technology, and 
exploration, so the activities around the moon, those kind of 
things that we don't really know how to do, to build the next 
generation of rocket engines, to build the next-generation of 
flight control strategies, those kind of things of how we 
operate independently from the Earth, those are the roles of 
the government to do that, to establish that first where 
doesn't make sense. We're building the heavy lift launch 
vehicle, as you know, the Space Launch System. There's not 
really a market for that if you look at that. That's really 
unique to what we need to do around the moon and other 
activities. But then once that market then comes behind it, 
then we can use the private sector.
    So I think the role of the civil servants are to do these 
really hard research, cutting-edge technology development that 
don't make sense at all for industry. It's good for the 
government to own that because then we can distribute that to 
industry as a whole and they can use that moving forward. So I 
think there's a strong role for the civil servants in the 
government to continue to do those research activities.
    Mr. Weber. Well, thank you for that. And, Mr. Martin, you 
said the Chinese space station is set to be operable 2022? Was 
that the year you said?
    Mr. Martin. I believe it's going to be--portions will be in 
orbit by 2020, Bill?
    Mr. Weber. Is it 2020?
    Mr. Martin. Yes.
    Mr. Weber. OK. Mr. Stallmer, I want to fix one thing that 
you said in your comments. You said that you think the U.S. 
needs to be the leader in space. The USA----
    Mr. Stallmer. We--yes, sir.
    Mr. Weber [continuing]. Needs to be the leader in space.
    Mr. Stallmer. We are and we need to continue to be----
    Mr. Weber. Yes.
    Mr. Stallmer [continuing]. Our leadership.
    Mr. Weber. Yes, thank you. I just wanted to point out. And 
then, Dr. G, discussing his dissing of the Polish Space 
Agency----
    Mr. Stallmer. It was just noting another space agency----
    Mr. Weber. OK.
    Mr. Stallmer [continuing]. That does not have T-shirts.
    Mr. Weber. It's no big deal, Mr. Stallmer. It's just 
something people are going to remember about you for a long 
time.
    Mr. Stallmer. I get hate mail. I get hate mail, I got to 
tell you.
    Mr. Weber. Yes, welcome to the club.
    Mr. Stallmer. Can you strike that from the record, Madam 
Chairwoman?
    Mr. Weber. And I appreciate you talking about the 
international agreement, no nukes in space, but I do want to 
point out military experts know that in any military conflict, 
whoever occupies the high ground has the upper hand. There is 
no higher ground than space. And so while I appreciate that in 
the words of nuclear nonproliferation or in terms of nuclear 
nonproliferation, I still want the United States of America to 
have preeminence in space. I absolutely do.
    And I remember a great one-liner from Senator Graham who 
said that if the lamb is going to lie down with the lion, we 
want America to be the lion. So space is important to us, we 
want to have that preeminence and make sure that we maintain 
that.
    A couple of small questions I have in my time left over. 
Mr. Gerstenmaier, you said that we had increased the bandwidth 
some 600 percent did you say?
    Mr. Gerstenmaier. The bandwidth is 600 megabits.
    Mr. Weber. Six hundred megabits. What was it?
    Mr. Gerstenmaier. It was I think about 100 megabits per 
second.
    Mr. Weber. So that's a substantial increase, so we're 
making progress. OK. Well, I appreciate all of you all being 
here to testify, and I will close by saying, Madam Chairwoman, 
let me wish you a happy belated birthday yesterday.
    Chairwoman Horn. Thank you. It was actually June, but thank 
you.
    Mr. Weber. OK. Madam Chairwoman, would you strike the 
comments from the record?
    Chairwoman Horn. I will be happy to.
    Mr. Weber. OK.
    Chairwoman Horn. You got the date right----
    Mr. Weber. OK.
    Chairwoman Horn [continuing]. But so very close, and thank 
you very much.
    Mr. Weber. Thank you.
    Chairwoman Horn. I think we can all point to Mr. Stallmer 
as having started the trouble with his comments about the 
Polish Space Agency.
    I've got a couple more questions. I want to sincerely thank 
all of the Members on this Committee and all of the panelists. 
As you can tell, this is an issue that is critical. I know it's 
not news to any of you, but it's also an issue that is critical 
to all of us, that we are attempting to ask and frame these 
important questions about how we move forward, about how we 
avoid capability gaps in the future and in absence of a space 
station, in the absence of the ability to do research and 
exploration in low-Earth orbit.
    The issues surrounding certainty and the investment of our 
taxpayer dollars and how we get there, where is the role of an 
emerging commercial sector and how much we subsidize these 
priorities that are critical to all of us, as well as, Dr. 
Gabrynowicz, the legal structure and the legal questions that 
will inevitably face us because, Mr. Weber, I agree with you, 
absolutely, we absolutely have to invest and be intentional 
about maintaining our investment and our preeminence in space. 
It is important for our scientific advancement. It is important 
for our national security and for our commercial sector and our 
ability to move forward.
    So having said that, I've got just a couple more very quick 
questions before we close out this hearing that have been 
raised for me. Throughout the questions, I've seen a few themes 
from all of you and from all of us, the capability gap in the 
transition, how we navigate that and what the extension is, the 
need for certainty both from NASA and from the commercial 
sector for us to plan because space and complicated issues 
require ongoing planning, how we prioritize and where we have 
to make those hard choices about the pathway forward, and 
finally, the risk and the legal structure and the need to ask 
all those questions and for us to give authorization and put 
that into law on the legal side but also a framework.
    So, Mr. Martin, there's a question that I wanted to ask you 
about, the cost and the subsidies for commercial. And so my 
question is what is the percentage of subsidy as a part of the 
commercial LEO development plan? We've talked about different 
aspects of it, but can you speak to the percentage of NASA 
subsidy?
    Mr. Martin. You're talking about the newly released----
    Chairwoman Horn. Yes.
    Mr. Martin. Eighty-five percent.
    Chairwoman Horn. Eighty-five percent, OK. And, Dr. 
Gabrynowicz, one additional question. When we're speaking about 
the U.S. Government responsibilities and legal obligations 
under the Outer Space Treaty and looking forward with 
commercial astronauts and other commercial entities, what level 
of ownership does the U.S. Government need to have in order to 
ensure sufficient oversight of a commercial space station?
    Dr. Gabrynowicz. That's not an answerable question at this 
point because the law doesn't speak in degrees. It speaks in 
principles at this point.
    Chairwoman Horn. Could you speak to some of those 
principles that need to be taken into consideration or used to 
create that legal framework then?
    Dr. Gabrynowicz. Well, regarding the Outer Space Treaty is 
the principle I raised about international responsibility. That 
is a principle that the United States Government is responsible 
for its nongovernmental space actors. The degree and kind of 
responsibility is going to be defined by what actually happens, 
and we don't--these would be cases of first impression, so we 
don't know what it's going to be.
    Then the other principle is in the International Space 
Station Agreement, which says even with the transfer of 
elements, the obligation of the partners still remains. So, 
again, that hasn't been done yet, so we're going to figure that 
out as we do it. But the principle is already there. 
Responsibility will continue to be--I'm sorry, rights and 
obligations will continue to be in force even after the 
transfer of elements.
    Chairwoman Horn. Thank you very much. Mr. Gerstenmaier, 
would you care to comment?
    Mr. Gerstenmaier. Again, I think her points are valid. I 
think it's--the rights and ownership responsibility of 
governments are important because it cuts the other way, too. 
If one of the other international partners want to remove, they 
can't remove themselves from their rights and responsibilities, 
so I think it's a good benefit both ways.
    Another thing we should talk a little bit about at some 
point is also the potential and maybe the role of the Commerce 
Department in some of these activities as we talk about 
economic development. We're not really an economic development 
agency. We're doing cutting-edge research and exploration. 
We're doing our best to move forward, but there may be a role 
for Commerce in this activity that should be thought about, as 
well as potential funding sources. Maybe it's not the burden of 
NASA to fund all this stuff. Maybe some of these transportation 
costs and other things may come from other areas of the 
government, but those should be discussed as well.
    Chairwoman Horn. Thank you for raising that point. Yes, 
there are very clearly issues surrounding commercial 
development in the Department of Commerce that this Committee 
and others will need to tackle moving forward.
    So, Mr. Babin, do you have further questions?
    Mr. Babin. I have no other questions except to say this has 
been a great hearing. I've enjoyed listening to the expert 
answers. Thank you for having this.
    I also want to say thank you to the Johnson Space Center 
folks that came up here to visit and get a little continuing 
education, and I'm proud of you for being here and all the 
great work you do back home. Thank you. I yield back.
    Chairwoman Horn. Thank you, Mr. Babin. And yes, thank you 
to all of our civil servants and the work that you've done. And 
thank you to our panelists. I agree; this is an important 
topic, and your insights were incredibly valuable as we tackle 
this critical issue about how we make the transition.
    And I want to thank the Committee, as well as all of the 
witnesses, for your participation and note that the record will 
remain open for 2 weeks for additional statements from the 
Members and for any additional questions the Committee may ask 
of the witnesses.
    And the witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

                                Appendix
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
